0

BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Brief of Amicus Curiae Ohio Prosecuting
Attorneys Association in Support of Petitioner in
Capital Case 19-1191, Ohio v. Shawn Ford, was sent
via Next Day Service to the U.S. Supreme Court, and
3 copies were sent via Next Day Service and e-mail to
the following parties listed below, this 30th day of
April, 2020:
Benjamin Michael Flowers
Ohio Attorney General Dave Yost
30 E. Broad St.
Columbus, OH 43215
(614) 466-8980
benjamin.f1owers@ohioattorneygeneral.gov

Counsel for Petitioner
Rachel Troutman
Ohio Public Defender
250 East Broad Street
Suite 1400
Columbus, OH 43215
(614) 466-9323
rachel. troutman@opd.ohio.gov

Counsel for Respondent

I

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

A.

KERSHNER, J.D.

MICHAEL C. O'MALLEY
Cuyahoga County Prosecutor
KATHERINE E. MULLIN*
Assistant Prosecuting Attorney
*Counsel of Record
ANTHONY MIRANDA
Assistant Prosecuting Attorney
1200 Ontario Street, gth Floor
Cleveland, Ohio 44113
216-698-6454
kem ullin@prosecutor .cuyahogacounty. us
Counsel for Amicus Curiae
Ohio Prosecuting Attorneys Association

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on April 30, 2020.

Donna J. Wolf
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

~ 3e:; r ~

dd,v ld . / j ~

Notary Public
[seal]

JOHN D. GALLAGHER
Notarv Public, State of Ohio

My Commission Expires
February 14, 2023

.

